           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        INDIVIDUAL VOLUME
      REPRESENTATIVE PAYEE IN
      HARTFORD, CONNECTICUT


    November 2008   A-15-08-28093




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   November 4, 2008                                                                   Refer To:

To:     Manuel J. Vaz
        Regional Commissioner
         Boston

From:   Inspector General

Subject: Individual Volume Representative Payee in Hartford, Connecticut (A-15-08-28093)



        OBJECTIVE
        Our objective was to determine whether this individual volume representative payee
        was providing the Social Security Administration’s (SSA) most vulnerable beneficiaries
        the full support and benefit their payments were intended to deliver.

        BACKGROUND

        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’
        payments. 1 A representative payee may be an individual or an organization. SSA
        selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
        beneficiaries or Supplemental Security Income (SSI) recipients when representative
        payments would serve the individuals’ interests. Representative payees are responsible
        for managing benefits in the best interest of the beneficiary. 2 See Appendix B for
        additional representative payee responsibilities.

        The individual representative payee under review is a volume payee, which is a payee
        caring for 15 or more SSA beneficiaries. 3 This representative payee received payments
        totaling $2,054,952 on behalf of 262 beneficiaries living in the Hartford, Connecticut,
        area from January 1 through December 31, 2007.




        1
            Social Security Act §§ 205(j) and 1631(a)(2); 42 U.S.C. §§ 405(j) and 1383(a)(2).
        2
            We use the term “benefits” in this report to refer to both OASDI benefits and SSI payments.
        3
            SSA, Program Operation Manual System (POMS), GN 00605.400.
Page 2 - Manuel J. Vaz

This representative payee is a practicing attorney and the court-appointed guardian for
93 percent of these beneficiaries. Most of these individuals suffer from mental
disorders. When an individual is appointed legal guardian for a competent or
incompetent beneficiary, part of the beneficiary’s funds may be used for guardianship
costs and court-ordered fees provided the guardianship appears to be in the
beneficiary’s best interest, beneficiary’s personal needs are met first, and beneficiary’s
funds would not be depleted by the guardianship costs.

To grant guardianship in the State of Connecticut, a court ruling or appointment must
find the person incapable of caring for him/herself or incapable of managing or directing
the management of his/her financial affairs or benefits. There are four types of
guardianships: Conservator of the Person, Conservator of the Estate, Plenary
Guardian, and Limited Guardian. For most beneficiaries, the representative payee is
appointed Conservator of the Person and/or Conservator of the Estate. 4 Lastly, per
SSA, this representative payee is also serving as a voluntary conservator for a number
of beneficiaries. 5

RESULTS OF REVIEW

We randomly selected a sample of 50 beneficiaries for whom the representative payee
served as both court-appointed conservator and payee. We also reviewed all the
beneficiaries’ files where the representative payee served only as the payee. We found
that the representative payee did not use and account for SSA benefits in accordance
with SSA policies and procedures. Specifically, the representative payee

   inappropriately charged 15 beneficiaries a total of $3,965 for his representative
    payee services;
   failed to notify SSA of the death of 2 beneficiaries in a timely manner;
   was acting as a conduit payee by improperly turning over all of the monthly SSA
    benefit payments to 6 beneficiaries; and
   incurred overdraft fees on 11 beneficiaries’ accounts by issuing checks against
    insufficient funds.




4
  A Conservator of the Person is appointed to supervise the personal affairs of an individual who is found
by the Court to be unable, even with appropriate assistance to meet essential requirements for personal
needs. A Conservator of the Estate is appointed, to supervise the financial affairs of an individual who is
found by the Court to be incapable of doing for himself/herself to the extent that property will be wasted
unless adequate property management is provided.
5
  A Voluntary Conservator is a third party appointed by an individual through a State court to manage that
individual’s assets without a finding of legal incompetence.
Page 3 - Manuel J. Vaz

We also found that the representative payee did not have effective safeguards over the
receipt and disbursement of Social Security benefits. Specifically, the representative
payee did not

   maintain supporting documentation for the expenses and personal spending of the
    beneficiaries that verified how the funds were used;
   maintain a signed record of cash transactions to beneficiaries;
   consistently or properly classify transactions within the accounting system; and/or
   adequately safeguard financial assets and records.

In addition, we noted that the Boston Regional Office contracted with an independent
accounting firm to perform a limited review of 16 representative payees. One of these
payees was the representative payee under our review. The findings reported by the
accounting firm conflict with the results of our review. These issues lead us to believe
SSA should consider reviewing the accounting firm’s work at the other 15 representative
payees.

USE AND ACCOUNTING FOR SOCIAL SECURITY BENEFITS

We found that the representative payee did not use and account for Social Security
benefits in accordance with SSA policies and procedures. Specifically, the
representative payee inappropriately charged 15 SSA beneficiaries a fee for his service,
failed to notify SSA of the death of 2 beneficiaries in a timely manner, acted as a conduit
payee for several beneficiaries and allowed overdraft fees to be assessed on several
beneficiaries’ bank accounts.

Unallowable Representative Payee Fees

During our audit period, the representative payee was a court-appointed conservator for
243 of the 262 beneficiaries assigned to his care. For the remaining 19 beneficiaries,
he was not the court-appointed conservator and served only as the representative
payee. We found the individual representative payee inappropriately charged 15 of
these 19 SSA beneficiaries a total of $3,965 for representative payee services. We
determined these fees were approximately 3 percent of the total benefit payments. We
noted that the fees were not always collected each month and varied in dollar amounts.
In addition, the beneficiaries’ files lacked documentation to support these charges by
the representative payee.

SSA’s procedures prohibit individual representative payees from collecting a fee from
SSA benefits for representative payee services except in certain circumstances, such
as court-ordered fees and fees for serving as a legal guardian. 6 Although the
representative payee was a court-appointed conservator for most of the beneficiaries in

6
 SSA, POMS, GN 00602.001.A.2, GN 00602.110.A, GN 00602.040; SSA, A Guide for Representative
Payees (No. 05-10076), p. 2, February 2006.
Page 4 - Manuel J. Vaz

his care and therefore was allowed to collect fees for conservatorship services, he
inappropriately took fees from beneficiaries when he was not the legally appointed
conservator. Therefore, the $3,965 must be paid back to the beneficiaries. We
reported this issue to SSA management, and they took immediate corrective action.

Untimely Notification of Deaths of Beneficiaries

During our review, we noted two beneficiaries who passed away while in the
representative payee’s care. The beneficiaries’ deaths were not reported to SSA on a
timely basis, which caused additional benefit payments to be deposited into the
beneficiaries’ bank accounts months after the dates of death. These payments were
improperly used for various expenses, including funeral costs, court fees, fees to the
representative payee and overdue rent. As of August 2008, one beneficiary still had an
overpayment reflected on the Master Beneficiary Record (MBR).

Representative payees are responsible for notifying SSA of any events that may affect a
beneficiary’s entitlement to benefits, including the beneficiary’s death. 7 According to
SSA’s A Guide for Representative Payees, when a Title II recipient dies, no benefit is
payable for the month of death, even if he or she dies on the last day of the month.
However, Title XVI payments are payable for the month of death. Without timely
notification of changes in beneficiaries’ circumstances, SSA is unable to adjust payment
amounts to avoid over- and underpayments for the beneficiaries.

Representative Payee was Acting as Conduit Payee

Representative payees are responsible for ensuring the beneficiary’s current needs are
met. The representative payee issued personal checks to the beneficiaries each month.
We found for several beneficiaries, the representative payee turned over the full amount
of their benefit payments to them in one check. By turning over the full benefit amount
to the beneficiary or a care facility, the representative payee was acting as a conduit
payee. A conduit payee is a payee who turns over the full amount of the benefit
payment to either the beneficiary or another person, such as a care facility. They do not
exercise control over the funds and cannot fully account for how the funds are spent. 8
The existence of a conduit payee may indicate a lack of interest in the beneficiary or
suggest the beneficiary should be receiving their own benefits directly. The
representative payee in these instances did not know how the beneficiaries were
spending their money.




7
    20 C.F.R. § 404.2035.
8
    SSA, POMS, GN 00608.044.
Page 5 - Manuel J. Vaz

Overdraft Fees on Beneficiary Accounts

The representative payee maintained individual bank accounts for each beneficiary.
Social Security policy encourages representative payees to have benefit payments
direct deposited into beneficiaries’ bank accounts. These bank accounts should be
properly titled to show the representative payee has only a fiduciary interest in the
account. The beneficiary should not have direct access to the account.

We reviewed the beneficiaries’ bank statements. We found the representative payee
had properly established individual bank accounts for each beneficiary in his care, and
only he could access them. We also found that the representative payee allowed
11 beneficiaries’ bank accounts to become overdrawn. These accounts were assessed
overdraft fees. Proper monitoring of the accounting records by the representative
payee could have prevented these bank charges.

RECEIPT AND DISBURSEMENT OF SOCIAL SECURITY BENEFITS

We found the representative payee did not have adequate internal controls for the
receipt and disbursement of Social Security benefits. Specifically, the representative
payee did not maintain sufficient supporting documentation for the expenses and
personal spending of the beneficiaries’ funds. In addition, the representative payee did
not maintain a signed record of cash disbursements to beneficiaries or consistently
classify beneficiary transactions in the accounting system. We also noted that the
financial assets and records were not adequately safeguarded.

Insufficient Supporting Documentation

The representative payee did not maintain receipts or other documentation to account
for how the beneficiaries’ monthly benefit payments were spent during our audit period.
For our sample, we examined each beneficiary’s file maintained by the representative
payee. We could not locate sufficient supporting documentation for most of the
beneficiaries’ expenses. Specifically, one individual had expenses for Liberty Mutual
and the Manchester Tax collector. There was no documentation to support these
expenses. Only after discussing these transactions with the representative payee’s
legal assistant were we able to determine these expenditures were related to the
purchase of a vehicle. In addition, there was no documentation pertaining to the
personal checks that were issued to the beneficiaries.

Federal regulations 9 require that representative payees keep accurate and complete
records of the funds received and spent to determine whether the beneficiary’s current
needs are being met. Although we could not confirm how these funds were expended




9
    20. C.F.R. §§ 404.2065 and 416.665.
Page 6 - Manuel J. Vaz

without receipts, nothing came to our attention that lead us to believe the expenditures
were not for the beneficiaries’ needs. Further, our interviews with seven beneficiaries
did not disclose any concerns that lead us to believe the beneficiaries’ needs were not
being met.

Lack of Cash Receipt Log

The representative payee disbursed cash to beneficiaries for personal allowances and
other needs during our audit period. For these cash disbursements, the representative
payee did not maintain a cash log to show the beneficiary actually received the cash.

During our review of the bank statements and canceled checks, we noted that the legal
assistant paid several beneficiaries in cash. This occurred when beneficiaries
requested money from their account but claimed they did not have sufficient
identification to cash a check at a bank. The legal assistant or the representative payee
would write a check for cash from the beneficiary’s account, endorse the check and take
the check to the bank. With rare exception, neither the legal assistant nor the
representative payee would require that the beneficiary sign for the cash payment. We
did note one instance where the beneficiary signed for cash. However, the check was
written for $200 but the receipt showed the beneficiary only received $150. The file did
not contain any information regarding the remaining $50.

Internal controls serve as the first line of defense in safeguarding assets and preventing
and detecting errors and fraud. Maintaining a cash receipt log for beneficiary cash
transactions is an effective safeguard the individual representative payee should use.

Inconsistent Classification of Transactions in the Accounting System

We reviewed the financial records for each beneficiary in our sample for the period
January 1 through December 31, 2007. We noted that monthly expenditures were
inconsistently classified in each beneficiary’s financial record. For example, rent
payments were classified either as real estate taxes or by the landlord’s name. We also
noted that personal checks were classified as life insurance or not classified at all.
These inconsistencies made it difficult to determine the correct purpose of the
beneficiaries’ expenses.

According to SSA procedures, 10 representative payees must use the benefits they
receive for current needs and in the best interest of the beneficiary. Representative
payees are required to maintain detailed and accurate records of all funds received and
spent to provide a true accounting to SSA. Because the representative payee did not
maintain a clear financial accounting record for each beneficiary in our sample, we
could not determine whether the benefit payments were being used properly and in the
beneficiaries’ best interests.


10
     SSA, POMS, GN 00602.001.
Page 7 - Manuel J. Vaz

Financial Records and Assets Were not Properly Safeguarded

The representative payee did not have adequate physical security controls to restrict
unauthorized access to beneficiaries’ records and assets. During our site visit, we
observed the distribution of personal checks to the beneficiaries. We noted that signed
checks were scattered over the desk area, and blank checks were in an unlocked desk
drawer. This area was accessible to all beneficiaries who came into the office. In
addition, beneficiary files were kept in unlocked cabinets in the adjacent room. These
files contained bank statements, leasing agreements, personal correspondence and
court documentation—all with personally identifiable information such as name,
address, bank account numbers and Social Security numbers.

The lack of access restrictions and physical safeguards for maintaining beneficiaries’
sensitive personal and financial information increases the risk of loss or unauthorized
use of beneficiaries’ personal information and funds.

INDEPENDENT REVIEW OF REPRESENTATIVE PAYEE

The Boston Regional Office contracted with an independent accounting firm to perform
a limited review of 16 representative payees. One of these payees was the
representative payee under our review. The accounting firm reported only a few minor
findings to SSA on our representative payee. These findings conflict with the results of
our review.

Because of the significant discrepancies between the independent accounting firm’s
report and our findings, we reviewed workpapers provided by the accounting firm.
Specifically, we noted the accounting firm stated in its report that the representative
payee had adequate internal security measures for safeguarding beneficiaries’ assets
and that bank reconciliations were performed timely. In addition, the accounting firm
found no instances where the bank statements showed overdraft fees.

However, during our review, we found the representative payee was unable to provide
bank reconciliations for the beneficiaries in our sample because the accounting software
did not save the reconciliations once they were completed. In addition, we found one
beneficiary in our sample and in the independent accounting firm’s sample had incurred
$75 in overdraft bank fees during the time periods of both reviews. These issues lead
us to believe SSA should consider reviewing the accounting firm’s work conducted at
the other 15 representative payees.
Page 8 - Manuel J. Vaz

CONCLUSION AND RECOMMENDATIONS
Our review found that the representative payee did not use and account for SSA
benefits in accordance with SSA policies and procedures. We also found that the
representative payee did not have effective safeguards over the receipt and
disbursement of Social Security benefits.

After our site visit to the representative payee’s office, we informed SSA management of
our findings. SSA personnel from the Boston Region visited the representative payee to
review his practices and performance in light of our findings. Based on their review of
the representative payee’s records, SSA issued a letter outlining corrective actions to be
taken. SSA has decided not to appoint the representative payee as payee for any
additional beneficiaries.

We recommend that SSA:

1. Refrain from placing additional beneficiaries with this individual representative payee
   until the representative payee has implemented corrective actions to ensure Social
   Security benefits are properly used and accounted for.

2. Take appropriate actions to seek restitution of $3,965 on behalf of the
   15 beneficiaries from whom the representative payee collected unallowable fees
   from January 1 through December 31, 2007.

3. Instruct the representative payee to inform SSA of events that may affect individuals’
   entitlement or benefit payment amount in a timely manner.

4. Instruct the representative payee to implement physical security controls to
   safeguard beneficiaries’ financial records and assets.

5. Ensure the corrective actions stated in SSA’s June 11, 2008 letter to the
   representative payee are completed (see Appendix D).

6. Review the independent accounting firm’s work conducted at the other
   15 representative payees to determine if follow-up reviews need to be performed.

AGENCY COMMENTS

SSA agreed with our recommendations. SSA’s comments are included in Appendix E.



                                             S
                                             Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Representative Payee Responsibilities
APPENDIX C – Scope and Methodology
APPENDIX D – Social Security Administration Letter to the Representative Payee
APPENDIX E – Agency Comments
APPENDIX F – Representative Payee Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
MBR      Master Beneficiary Record
OASDI    Old-Age, Survivors and Disability Insurance
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                        Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

     Determine the beneficiary’s current needs for day-to-day living and use his/her
      payments to meet those needs.

     Conserve and invest benefits not needed to meet the beneficiary’s current needs.

     Maintain accounting records of how the benefits are received and used.

     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or benefit payment amount.

     Report any changes in circumstances that would affect their performance as a
      representative payee.

     Provide SSA an annual Representative Payee Accounting Report to account for
      benefits spent and invested.

     Return any payments to SSA for which the beneficiary is not entitled.

     Return conserved funds to SSA when no longer serving as the representative payee
      for the beneficiary.

     Be aware of any other income Supplemental Security Income recipients may have
      and monitor their conserved funds to ensure they do not exceed resource limits.




1
    20 C.F.R. §§ 404.2035, and 416.635.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period January 1 through December 31, 2007. To accomplish
our objectives, we:

   Reviewed applicable Federal laws and regulations as well as the Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.
   Reviewed prior work performed by the Office of the Inspector General and SSA in
    the representative payee area.
   Contacted the SSA Boston Regional Office and Hartford, Connecticut, field office
    staffs to obtain background information and prior audits regarding the individual
    representative payee.
   Compared and reconciled a list of SSA beneficiaries in the representative payee’s
    care from the payee to a list obtained from the representative payee system.
   Reviewed the representative payee’s internal controls over the receipt and
    disbursement of Social Security benefits.
   Selected a sample of 50 beneficiaries for whom the representative payee served as
    both the court-appointed conservator and the payee. We also reviewed all the
    beneficiaries’ files where the representative payee served only as the payee during
    the audit period and performed the following tests.
    o Compared benefit amounts paid according to SSA’s record to the benefit
      payment recorded in the payee’s accounting records.
    o Reviewed the bank statements of the beneficiaries and the payee’s accounting
      records to determine whether benefits payments were properly deposited.
    o Reviewed beneficiary files for supporting documentation of expenses and
      personal spending.
   Interviewed a non-random sample of seven beneficiaries to determine whether their
    basic needs were being met.

We performed our fieldwork for this review in Hartford, Connecticut, between March and
May 2008. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.
                                      Appendix D

Social Security Administration Letter to
Representative Payee
D-1
D-2
D-3
D-4
                  Appendix E

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM


Date:      October 9, 2008                                                           Refer To: S2D1G3/CL-22

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Manuel J. Vaz
           Regional Commissioner
           Boston

Subject:   Individual Volume Representative Payee in Hartford, Connecticut (A-15-08-28093)

           Thank you for the opportunity to comment on the draft audit report on the individual
           volume representative payee in Hartford, Connecticut. We agree with all of the
           recommendations in the report.

           1.   Refrain from placing additional beneficiaries with this individual representative payee
                until the representative payee has implemented corrective actions to ensure Social
                Security benefits are properly used and accounted for.

                On April, 21, 2007, the Boston Region instructed all SSA field offices in Region I not
                to place additional beneficiaries with this individual representative payee without prior
                approval from the Center for Programs Support.

           2. Take appropriate action to seek restitution of $3,965 on behalf of the 15 beneficiaries
              from whom the representative payee collected unallowable fees from January 1 through
              December 31, 2007.

                The Boston Region expanded the scope of the review beyond the initial January 1
                through December 31, 2007, period and determined this representative payee charged
                unallowable fees totaling $4,205. In a letter date September 13, 2008, we requested
                restitution of all inappropriate fees this representative payee collected from
                beneficiaries.

           3. Instruct the representative payee to inform SSA in a timely manner of events that may
              affect individuals’ entitlement or benefit payment amount.




                                                         E-1
   During our April 22, 2008, review the Boston Region provided this payee with SSA
   Publication No. 05-10076, A Guide for Representative Payees, SSA Publication No.
   17-013, Guide for Organizational Representative Payees, and instructions on accessing
   the SSA Representative Payee website. During this review SSA representatives
   instructed this payee to inform SSA in a timely manner of any events that would affect
   the entitlement to benefits or the payment amount of benefits.

4. Instruct the representative payee to implement physical security controls to safeguard
   beneficiaries’ financial records and assets.

   During our April 2008 review the Boston Region instructed this payee to implement
   physical controls to safeguard beneficiaries’ financial records and assets.

5. Ensure the corrective actions stated in SSA’s June 11, 2008, letter to the representative
   payee are completed.

   On October 21, 2008, the Boston Region will conduct a follow-up visit with this
   representative payee to ensure that all of the corrective actions listed in SSA’s June 11,
   2008, letter are completed.

6. Review the independent accounting firm’s work conducted at the other 15
   representative payees to determine if follow-up reviews need to be performed.

   The Boston Region will review the accounting firms work from the other 15
   representative payees reviewed to determine if follow-up reviews with these
   representative payees are needed.

Thank you for the opportunity to comment on this draft. If you have any questions, please
contact me or your staff may contact Michael Bonner of the Center for Programs Support at
617-565-2882.




[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




                                            E-2
                                Appendix F

Representative Payee Comments
F-1
F-2
F-3
F-4
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kristen Schnatterly, Director, Technical Services Division (410) 965-0433

Acknowledgments

In addition to those named above:

   Judith Kammer, Auditor-in-Charge

   Kelly Lewis, Auditor

   David Rodriguez, Attorney

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-08-28093.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches, and
presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
